HHS/OIG, Audit -"Review of the Hospital Wage Index at Baylor University Medical
Center,"(A-06-06-00038)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Hospital Wage Index at Baylor
University Medical Center," (A-06-06-00038)
May 9, 2006
Complete
Text of Report is available in PDF format (443 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether Baylor University Medical Center (the
hospital) complied with Medicare requirements for reporting wage data in its fiscal year
(FY) 2003 Medicare cost report.  We found that the hospital did not fully comply with
Medicare reporting requirements for reporting wage data in its FY 2003 Medicare cost report.  We
recommended that the hospital implement review and reconciliation procedures to ensure that
the wage data reported to CMS are accurate, supportable, and in compliance with Medicare
requirements.  In its written comments on our draft report, the hospital did not concur
with two of our findings and noted that a third finding was corrected by the fiscal intermediary.